HHS/OIG, Audit -"Review of Claims Billed by Independent Diagnostic Testing Facilities
for Services Provided to Medicare Beneficiaries During Calendar Year 2001,"(A-03-03-00002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims Billed by Independent Diagnostic Testing Facilities for Services
Provided to Medicare Beneficiaries During Calendar Year 2001," (A-03-03-00002)
June 30, 2006
Complete
Text of Report is available in PDF format (1.1 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether:  (1) services that IDTFs provided to Medicare
beneficiaries with 100 or fewer services during CY 2001 were (a) reasonable and necessary,
(b) ordered by a physician, and (c) sufficiently documented in accordance with Federal laws,
regulations, and guidelines; and, (2) IDTFs operated in accordance with their initial enrollment
applications and subsequent updates filed with the carriers.  Services that IDTFs provided
to Medicare beneficiaries were not always reasonable and necessary, ordered by a physician,
or sufficiently documented.  Of the 230 sampled beneficiaries, who received 1,804 IDTF
services, 80 beneficiaries received 1,231 services that did not comply with applicable Federal
laws, regulations, and guidelines.  We also found a marked pattern of repetitive use
of services.  Fifty-five of the sampled beneficiaries accounted for 1,095 of the 1,231
questioned services.  These beneficiaries received their services from IDTFs in California
and Florida.
Of the 219 IDTFs that provided services to the sampled beneficiaries, 191 did not comply
with initial enrollment application and subsequent update requirements.  IDTFs did not
report operational changes such as the identity and number of technicians, supervising and
interpreting physicians, type and model number of equipment, and tests performed.  IDTFs
also failed to report changes in their ownership and location.
We recommended that CMS require its carriers to:  (1) recover the $164,839 in overpayments
that we identified; (2) perform follow-up reviews to identify and recover a potential $71.5
million in improper payments made to IDTFs by the 10 selected carriers, in particular those
in California and Florida; and (3) consider performing site visits to monitor compliance
with IDTFs initial enrollment applications and subsequent updates should funding become
available.
In its comments on our draft report, CMS agreed with the first two recommendations subject
to verification of the overpayments by the Medicare contractors and other conditions.  With
respect to the third recommendation, CMS stated that, because of funding limitations, it
was not able to require Medicare carriers to conduct site visits to monitor IDTF compliance.  While
we continue to believe that onsite visits are a useful tool to ensure that only legitimate
IDTFs are enrolled in the Medicare program, we recognize that funding limitations may preclude
carriers from performing such visits.  Accordingly, we have modified our third recommendation
to acknowledge those funding limitations.